                                                       IG-01-029




AUDIT
                            CONSOLIDATED SPACE OPERATIONS
REPORT                        CONTRACT: EVALUATING AND
                               REPORTING COST SAVINGS

                                     August 31, 2001




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Audits at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Audits
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at ww.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The
identity of each writer and caller can be kept confidential, upon request, to the extent permitted by
law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

CSLA            Contract Service Level Agreement
CSOC            Consolidated Space Operations Contract
FY              Fiscal Year
OMB             Office of Management and Budget
PSLA            Project Service Level Agreement
SOMO                    Space Operations Management Office
W                                                                                           August 31, 2001


TO:                 A/Administrator

FROM:               W/Inspector General

SUBJECT:            INFORMATION: Consolidated Space Operations Contract:
                    Evaluating and Reporting Cost Savings
                    Report Number IG-01-029

The NASA Office of Inspector General conducted an audit of the Consolidated Space Operations
Contract (CSOC). NASA estimated that by consolidating existing space operations 1 contracts
under this one contract, savings of $1.4 billion dollars over 10 years would be achieved. We found
that NASA cannot substantiate the $62 million of cost savings reported to the Congress for the first
2 years of the CSOC. As a result, the Congress and NASA cannot evaluate current cost savings
for the CSOC or whether it will achieve the anticipated $1.4 billion cost savings through fiscal year
(FY) 2008. Because NASA has reduced future operating budgets in anticipation of projected
savings, it is imperative that the Agency determines whether current and anticipated cost savings are
being achieved under the CSOC.

Background

The Space Operations Management Office (SOMO) at Johnson Space Center (Johnson) awarded
the cost-plus award fee CSOC to Lockheed Martin Space Operations Company (Lockheed) on
September 25, 1998. The CSOC reflects a consolidation of most existing NASA-wide space
operations contracts. Lockheed has a supporting team consisting of Allied Signal, Booz-Allen
Hamilton, Computer Sciences Corporation, GTE Government Systems Corporation, and about 36
subcontractors. The total contract is valued at more than $3.6 billion and includes a 5-year base
period and a 5-year option period.

The Senate Appropriations Committee recognized in Report 105-216 the critical nature of
continuing efforts to consolidate and increase the efficiencies of NASA's space communications
activities. The Senate report directed NASA to report semiannually to the Congress the expected
savings under CSOC, beginning April 30, 1999, and continuing through December 31, 2005.
NASA has provided three reports as directed. In


1
 Space operations are those activities that provide products and services to enable the utilization and exploration of space.
                                                                                                                               2

its third report, dated October 21, 2000, NASA stated that the budget for CSOC already accounts
for $62 million in savings through FY 2000 and that the CSOC remains on track to achieve the
projected savings of $1.4 billion through FY 2008.

The Office of Management and Budget (OMB) defines cost savings as a reduction in actual
expenditures below the projected level of costs to achieve a specific objective.2 NASA did not
perform an analysis to compare actual expenditures with projected costs of the CSOC but relied on
budget reductions for evaluating and reporting cost savings to the Congress.

Recommendations

We recommended that NASA evaluate and report cost savings based on the accumulation of actual
costs for work performed under the contract. This action helps ensure that NASA and the
Congress will have valid information upon which to evaluate whether CSOC will achieve its
anticipated savings. We also recommended that NASA revise, in future reports to the Congress,
cost savings previously reported to reflect savings based on actual costs.

Management’s Response and OIG Evaluation

NASA nonconcurred with the recommendations. NASA stated that the anticipated savings from
CSOC of $1.4 billion were based on a mission model3 that is no longer valid. NASA has now
aligned it mission operations services with current mission models and is tracking costs differently.
The Agency stated that it does not plan to report cost savings in the future because any report
based on the original model would reflect an inaccurate picture of costs and savings.

During a meeting to discuss the response, an Office of Space Flight official informed us that the
NASA Office of Legislative Affairs is drafting a letter to the Congress that will seek a waiver from
the requirement to report cost savings. While a waiver, if granted, would relieve NASA of the
congressional reporting requirement, the Agency must develop a method to evaluate the success of
the consolidating space operations contracts. The waiver request should contain a full disclosure of
why cost savings reports cannot be provided and should outline how the Agency is currently
tracking costs. We asked that management provide a copy of the letter and congressional response
for our review. At this time, however, NASA is still obligated to report cost savings as directed.




2
 OMB Circular A-131, "Value Engineering" dated May 21, 1993, contains the definition of cost savings.
3
 Addendum A to the CSOC contains a mission set. This set, or model, lists the missions for which the contractor will
provide space operation services during the life of the contract. The model identifies the mission phase, the mission launch
date, mission potential stop date, and mission committed stop date.
                                                                                                 3

Accordingly, we are restating our recommendations pending the congressional decision about
NASA's request.

Details on the status of the recommendations are in the recommendations section of the report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of the Consolidated Space Operations Contract: Evaluating and
 Reporting Cost Savings
CONSOLIDATED SPACE OPERATIONS CONTRACT:
 EVALUATING AND REPORTING COST SAVINGS
W                                                                        August 31, 2001


TO:             M/Associate Administrator for Space Flight

FROM:           W/Acting Assistant Inspector General for Audits

SUBJECT:        Final Report on Audit of the Consolidated Space Operations Contract: Evaluating
                and Reporting Cost Savings
                Assignment Number A-00-004-01
                Report Number IG-01-029


The subject final report is provided for your use and comment. Please refer to the Results in Brief
section for the overall audit results. Our evaluation of your response is incorporated into the body
of the report. With respect to management's nonconcurrence with the recommendations, we request
that management submit additional comments by October 30, 2001, as discussed in our meeting
with Office of Space Flight officials regarding the draft report. Specifically, please provide a copy
of the letter requesting a waiver from the requirement to report cost savings contained in Senate
Report 105-216 and the congressional response to the request. The recommendations will remain
open for reporting purposes.

If you have questions concerning the report, please contact Mr. Daniel Samoviski, Program
Director, Program/Project Management Audits, at (301) 286-6890; Ms. Esther Judd, Program
Manager, at (301) 286-3359; or Ms. Clara L. Seger, Auditor-in-Charge, at (321) 867-4715. We
appreciate the courtesies extended to the audit staff. The final report distribution is in Appendix E.




[original signed by]
Alan J. Lamoreaux

Enclosure
                                                           2

cc:
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
JSC/AA/Acting Director, Lyndon B. Johnson Space Center
                                 3

bcc:
AIGA Chron
M/Audit Liaison Representative
W/K. Carson
  D. Samoviski
  E. Judd
  C. Seger
  N. Cipolla
                               NASA Office of Inspector General

IG-01-029                                                                                      August 31, 2001
 A-00-004-01
                        Consolidated Space Operations Contract:
                         Evaluating and Reporting Cost Savings

Introduction

In response to the challenge of the National Performance Review to provide higher quality
service at lower cost, NASA and other Government agencies began to restructure their
individual roles and responsibilities. As part of the NASA restructuring, the NASA
Administrator designated Johnson as the Lead Center for Space Operations. The SOMO at
Johnson is responsible for the CSOC.

The current basic CSOC value is about $1.9 billion. Additional services may be transitioned to
the contract and it may be extended through the exercise of options that could increase the value
by about $1.7 billion.

The stated goals of the contract award were excellent services at significantly reduced cost; a
shift of responsibility and accountability to industry; an Integrated Operations Architecture
(IOA)4 that reduced unnecessary duplication and life-cycle cost; streamlined processes and
minimized intermediaries; and the adoption of commercial practices and services. NASA
anticipated that attaining these goals should substantially reduce costs. NASA projected savings
of $1.4 billion over 10 years from the award of CSOC to Lockheed.

Our audit objective was to determine whether the projected benefits of contract consolidation
have been realized. This report identifies a condition regarding NASA's inability to substantiate
whether cost savings have been achieved under the CSOC. Details on the objectives, scope,
and methodology are in Appendix A.

Results in Brief

NASA cannot substantiate the $62 million of cost savings reported to the Congress for the first
2 years of the CSOC. NASA based the reported cost savings on budget reductions rather than
on an analysis of actual costs for work performed under the contract. As a result, the Congress
and NASA cannot evaluate current cost savings for the CSOC or whether it will achieve the
anticipated $1.4 billion cost savings through FY 2008.



4
  The IOA consists of an operations concept, a plan for developing the hardware and facilities, and the blueprints for
the plan to provide space operations services under the CSOC.
Background

The CSOC consolidates the management of all of NASA's data collection, telemetry, 5 and
communications operations supporting Earth-orbiting satellites, planetary exploration, and
human space flight activities under one contract. NASA's expectation is that the CSOC
contractor will leverage aerospace industry experience with commercial expertise, processes,
and services to develop innovative and cost-effective solutions for providing effective mission
and data services.

CSOC services are performed in accordance with service-level agreements between the
contractor and NASA. There are two types of agreements: contract service-level agreement
(CSLA) and project service-level agreement (PSLA). The CSLA obligates the contractor to
provide the services described in the contract statement of work for the total contract period.
The PSLA is a commitment between the SOMO and its customers that may include a subset of
CSOC-related activities such as processing and storage of data. The terms and conditions of
each PSLA detail the scope of work for that project, the required levels of service in service
units,6 and other project-unique requirements with performance expectations.

Our prior report7 on CSOC focused on whether NASA had performed sufficient analysis
before completing the consolidation of future contracts and in preparation for exercising future
CSOC contract options. Our current report addresses the Agency’s support for CSOC cost
savings reported to the Congress.




5
  Telemetry is the technology of automatic measurement and transmission of data by wire, radio, or other means from
remote sources, as from space vehicles, to a receiving station for recording and analysis.
6
  Service units are measurements, such as quantity of data stored, that are established by the contractor in order to
express service prices as unit prices.
7
  We issued IG-00-043, “Consolidated Space Operations Contract—Cost-Benefit Analysis and Award Fee Structure,”
on September 20, 2000.

                                                          2
Substantiating the Cost Savings

Congressional Requirement to Report Cost Savings. Senate Report 105-216,
accompanying the FY 1999 VA-HUD-Independent Agencies appropriations bill, directed
NASA to report semiannually to the Congress the expected savings under CSOC, beginning
April 30, 1999, through 2005. The Senate Appropriations Committee recognized in Report
105-216 the critical nature of continuing efforts to consolidate and increase the efficiencies of
NASA's space communications activities. The Committee stated that cost savings reports
submitted by NASA are intended to enable the Committee to evaluate whether CSOC will
achieve its anticipated savings.

Report to the Congress. NASA has provided three reports to the House Subcommittee on
VA-HUD-Independent Agencies as directed. In its first two reports, dated July 21, 1999, and
May 30, 2000, NASA reported no cost savings. The reports explained that savings in the early
years of the contract would be minimal because efficiencies gained by the contractor through
initial contract consolidations would be offset by investments in new operations architecture. In
its third report, dated October 21, 2000, NASA stated that the budget for the CSOC already
accounts for $62 million in savings through FY 2000 and that the CSOC remains on track to
achieve projected savings of $1.4 billion through FY 2008.

CSOC Cost Savings Comparison Report. In April 2000, the Office of Space Flight's
Director of Resources Management for Space Communications developed a cost savings
comparison (portions are in Appendix B) to support the report to the Congress. NASA based
the reported $62 million savings on the comparison. The comparison indicates that:

     •    Original savings anticipated were achieved by budget reductions.

     •    NASA projected CSOC original cost savings of $1.4 billion by comparing the
          Government estimate of $4.8 billion8 with the contractor's proposed amount of $3.4
          billion.

     •    NASA arrived at the current savings of $62 million ($16 million in FY 1999 and $46
          million in FY 2000) by adjusting the original savings by additional savings assumed.9




8
  The CSOC Source Evaluation Board, appointed by NASA to evaluate CSOC proposals, did not perform a technical
analysis or comparison of the current baseline with the contractor's proposal to arrive at the Government estimate prior
to award of the contract as required by Federal Acquisition Regulation (FAR) Subpart 15.305, "Proposal Evaluation,"
and NASA FAR Supplement 1815.305. Consequently, NASA does not have the benefit of using the results from such
an analysis to determine cost savings.
9
  The additional assumed, or expected, savings resulted from contract changes and deferrals.

                                                           3
The OMB defines cost savings as a reduction in actual expenditures below the projected level
of costs to achieve a specific objective. NASA based its determination of cost savings on
SOMO budget reductions. NASA officials stated they reduced the FY 1999 SOMO budget
by $220 million for the 5-year period FY 1999 through FY 2003 in anticipation of cost savings.
Although the CSOC is operating within the reduced budget guidelines, we believe budget data
is not sufficient to determine whether cost savings have occurred under the contract. Other
factors such as contract changes resulting from reductions or postponement of work included in
the contract may be responsible for the cost savings reported.

Further, before reporting semiannually to the Congress, NASA did not perform an analysis to
compare actual expenditures with projected costs of the CSOC, but relied on budget
reductions for evaluating and reporting cost savings. OMB supports performing analyses of
past experience to determine whether initial estimates were valid.10 Without this type of
analysis, NASA cannot substantiate current or anticipated cost savings reported to the
Congress.

Indicators on Cost Savings

We identified two indicators that NASA's identified cost savings may not be factual. First,
some current CSOC customers indicated that services cost more under CSOC than under
previous contracts. Second, the contractor has not provided the SOMO accurate and timely
cost information on which NASA can evaluate cost savings.

Customer Survey. We administered a customer satisfaction survey to 80 NASA program
and project managers who currently use CSOC services. Eighteen of the customers responded
to the survey. Eighty-six percent of those who responded indicated that services cost more
compared to the previous service provider.11 While the responses to the survey do not provide
conclusive evidence that costs are higher under CSOC, they do indicate that the reported cost
savings may not be valid.

Contractor's Cost Reporting. The SOMO's evaluation of the contractor's performance for
the 6-month award fee period ending December 31, 2000, noted program and business
management weaknesses.12 Specifically, the contractor's failure to provide accurate and timely
cost information to NASA has resulted in the SOMO's and CSOC customers' low level of
confidence in relying on the CSOC pricing for services. This information is vital to the SOMO
and CSOC customers because they will use it to plan future missions and


10
   OMB Circular A-94, "Discount Rates to be Used in Evaluating Time-Distributed Costs and Benefits," October 29,
1992, notes the value of retrospective studies or analyses to determine whether anticipated benefits have been realized.
11
   SOMO officials explained that prices to the customer are higher under CSOC because they contain elements that were
previously funded by SOMO but must now be funded by the customer.
12
   The CSOC includes an award fee plan. In accordance with the plan, NASA evaluates the contractor's performance
after each 6-month period to determine the amount of award fee the contractor has earned.

                                                           4
prepare budgets. The SOMO's evaluation also stated that for the award fee period ending
December 31, 2000, the contract incurred a significant cost overrun13 of about $29.1 million.

Conclusion

The validity of savings reported to the Congress is questionable based on the lack of a detailed
cost savings analysis by NASA combined with customers' perceptions that costs are higher and
management's lack of confidence in the contractor's cost information. Further, NASA has
reduced future SOMO operating budgets in anticipation of savings; therefore, it is imperative
that the Agency determines whether current and anticipated cost savings are being achieved
under CSOC and base reports to the Congress on actual cost savings achieved through the
contract consolidation. Management should also revise amounts previously reported to the
Congress to reflect cost savings based on actual costs.

Recommendations, Management’s Response, and Evaluation of
Response

The Associate Administrator for the Office of Space Flight should:

1. Evaluate and report CSOC savings based on the accumulation of actual costs for
   the work performed under the contract.

Management’s Response. Nonconcur. NASA accumulates actual costs under the CSOC
contract. However, NASA does not plan to report cost savings in the future. NASA based
anticipated savings on a mission model that is no longer valid. NASA has now aligned its
mission operations services with current mission models. Therefore, any future report that is
based on an outdated mission model would reflect an inaccurate picture of costs and savings.
The complete text of management’s response is in Appendix C.

Evaluation of Management's Response. NASA’s comments are nonresponsive to the
recommendation. During a follow-up discussion regarding the comments, the Deputy Associate
Administrator for Space Communications, Office of Space Flight, informed us that in lieu of
further cost savings reports to Congress, the NASA Office of Legislative Affairs was preparing
a letter to request a waiver from the requirement to report cost savings. However, NASA
would continue to report on commercialization and other efficiencies achieved under the
contract. At this time, NASA is still obligated to report cost savings as directed. Accordingly,
we are restating our recommendation pending the congressional decision about NASA’s
request.




13
     Overrun on a contract occurs when the actual cost of work performed exceeds the budgeted cost of work performed.

                                                            5
2. Revise, in future reports to the Congress, cost savings amounts previously
   reported to reflect savings based on actual costs.


Management’s Response. Nonconcur. Because NASA has aligned its mission operations
services with current mission models, the Agency is tracking its costs differently and does not
intend to report cost savings.

Evaluation of Management's Response. NASA's comments are nonresponsive to the
recommendation. In addition to requesting a waiver from the future reporting requirement as
discussed in recommendation 1, the Agency must also obtain relief from the requirement to
report prior period cost savings from initial contract award to the current reporting period. The
relief is necessary because NASA cannot support amounts initially reported and NASA does
not have a methodology for calculating and reporting cost savings to the Congress from prior
periods. The waiver request should contain a full disclosure of why NASA cannot provide cost
savings reports and should outline how the Agency is currently tracking costs. Therefore, we
are restating our recommendation pending the congressional decision regarding NASA's
request. We ask that the NASA Office of Legislative Affairs provide us a copy of the letter to
the Congress and the congressional response when it is received. At that time, we will
reevaluate the status of recommendations 1 and 2, and notify management in writing of our
results.

Additional OIG Comments

In its response to our prior report IG-00-043, management concurred with the
recommendations to perform cost benefit analysis prior to exercising any contract options and
to evaluate at least annually whether the projected benefits have been realized. The Agency
cited three sources of information it uses to evaluate whether the projected benefits have been
realized: (1) SOMO tracks cost savings for the Agency, and the CSOC contractor holds
quarterly Cost Savings Profile Reviews with SOMO; (2) the evaluation of the contractor's
performance against the cost baseline is performed quarterly during the award fee evaluation
and under the look-back award fee evaluation; and, (3) as directed in Senate Report 105-216,
NASA reports CSOC savings semiannually to the Congress. We have been unable to confirm
cost savings from any of these sources as described below. Consequently, the
recommendations in the prior report remain open.

•   Contractor's Quarterly Cost Savings Profile Reviews. When we requested copies of the
    cost savings profiles for our review, the SOMO Business Manager at Johnson indicated a
    low level of confidence in the contractor's information. Alternatively, he suggested that it
    would be more meaningful to review a separate analysis that he had performed and
    provided to NASA Headquarters. However, his separate analysis was based on the
    mission model that in its response to this draft report, NASA stated was no longer valid.


                                                6
•    Performance Against the Cost Baseline. In the evaluation narrative for the award fee period
     ending December 31, 2000, the Agency noted weaknesses in the contractor’s cost
     reporting system and stated that the contractor has not provided to the SOMO accurate
     and timely cost information on which NASA can evaluate cost savings. Consequently, in
     our view, the Agency's ability to accurately determine cost savings under the contract from
     award fee evaluations is questionable.

•    Agency Cost Savings Reports to Congress. The Agency cannot substantiate cost savings
     reported to the Congress for the first 2 years of the CSOC. This issue is the subject of this
     report.

The Acting Assistant Inspector General for Audits notified the Agency in a letter to the Office of
Space Flight on June 27, 2001, of our decision to terminate audit work under the CSOC
assignment with the issuance of this report in final form (see Appendix D). We may open a
future assignment to address (1) the reorganization announced on March 5, 2001, by the
CSOC prime contractor, Lockheed Martin Space Operations Company and (2) continuing
contractor performance problems noted in the letter. However, our main concern is that NASA
management will exercise the option in less than 3 years to extend the period of performance
beyond the 5-year base period, valued at about $1.3 billion, without a thorough evaluation of
the contractor's cost and technical performance to ensure that the CSOC is still the best
alternative to meeting current and future customer needs.

In summary, the Congress requested that NASA provide semi-annual reports in order to
evaluate whether the CSOC will achieve its anticipated savings. A waiver, if granted, would
relieve NASA of the congressional reporting requirement, but not from the need to develop a
method to evaluate the anticipated and actual cost savings, if any, from the CSOC. This
information is critical for determining future funding requirements and whether to exercise
contract options totaling about $1.7 billion.14 We understand the complexity of determining cost
savings without a useful baseline as noted by the Agency in response to our recommendations.
In developing an effective methodology to evaluate CSOC cost savings, the Agency may find it
helpful to obtain assistance from the NASA Independent Program Assessment Office at
Langley Research Center.




14
  The options totaling about $1.7 billion include one option to extend the period of performance beyond the 5-year
base period, valued at about $1.3 billion. In addition, various options for Kennedy Space Center and Space Station
services with a combined value of about $.4 billion can be exercised during the base and extended contract periods.

                                                           7
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether the CSOC goals were being accomplished.
This report identifies conditions regarding substantiation of NASA's reported cost savings for
the CSOC. The Office of Inspector General issued Report IG-00-043 September 20, 2000,
on the CSOC cost-benefit analysis and award fee structure. Details of the report are discussed
under "Prior Audit Coverage" in this appendix.

Scope and Methodology

The audit included a review of the methodology the Agency used to identify current and
projected cost savings from the consolidation of space operations contracts. We examined
documents the Agency provided to support cost savings estimates. We developed and
administered a CSOC customer satisfaction survey and analyzed responses to determine
whether the CSOC is meeting customer needs including providing services at significantly
reduced costs. We interviewed NASA Office of Space Flight officials at Headquarters and
Johnson and Earth and Space Science program and project managers at Goddard Space Flight
Center. We did not rely on computer-processed data to achieve the audit objectives.

Management Controls Reviewed

We reviewed the following management controls:

•   Federal Acquisition Regulation (FAR) 15.305, "Proposal Evaluation," describes a cost
    realism analysis that should be performed during an evaluation of cost reimbursement
    contract proposals.

•   NASA FAR Supplement 1815.305, "Proposal Evaluation," provides details of the cost
    realism analysis to be performed when evaluating other than firm-fixed-price contract
    proposals.

•   NPG 1000.2, "NASA Strategic Management Handbook," dated February 2000, enables
    the Agency to establish strategy, make decisions, allocate resources, and manage programs
    safely, effectively, and efficiently.

•   NPG 7120.5A, “NASA Program and Project Management Processes and Requirements,”
    dated April 3,1998, governs formulation, approval, implementation, and evaluation of all
    NASA programs and projects.


                                              8
                                                                                Appendix A
We determined that management controls are generally effective except for the weaknesses
discussed in the report.

Audit Field Work

We conducted field work for this portion of the audit from May 2000 through January 2001 at
NASA Headquarters, Johnson, and Goddard Space Flight Center.

Prior Audit Coverage

The NASA Office of Inspector General issued a report relating to the CSOC. The report is
summarized below. (A copy of the report is available at
http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html)

"Consolidated Space Operations Contract -- Cost Benefit Analysis and Award Fee
Structure," Report Number IG 00-043, September 20, 2000. The Space Operations
Management Office (SOMO) estimated that consolidating existing space operations contracts
under one contract would yield a savings of $1.2 billion dollars over the next 10 years.
However, the SOMO did not perform a cost-benefit analysis as part of the decisionmaking
process prior to awarding the CSOC. As a result, NASA is not assured that CSOC is the best
approach for fulfilling the space operations requirements and that it will achieve the anticipated
cost savings. In addition, we found that NASA did not properly structure the award fee for the
CSOC to evaluate performance of the Integrated Operations Architecture. The CSOC Award
Fee Plan lacks defined criteria for measuring performance, appropriate evaluation periods, and
proper emphasis on cost performance. Without these provisions, NASA cannot measure
contractor performance to assess the appropriate amount of award fee and provide an effective
incentive for the contractor. Also, the contract does not require progress reports on the
architecture baseline beyond the initial submission. As a result, NASA cannot ensure that the
supporting infrastructure and capabilities are maintained to sustain product delivery activities.
NASA concurred with the recommendation to require progress reports on the architecture
baseline and concurred in principle with the recommendation to determine whether future
contract options are cost beneficial. Management nonconcurred with all recommendation to
revise the award fee provisions.




                                                9
Appendix B. CSOC Cost Savings Comparison




                   10
Appendix C. Management's Response




               11
Appendix C




             12
     Appendix C




13
Appendix D. Letter Terminating CSOC Assignment




                      14
     Appendix D




15
Appendix D




             16
                           Appendix E. Report Distribution

A/Administrator
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, Goddard Space Flight Center
Acting Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Marshall Space Flight Center
Jet Propulsion Laboratory
Chief Counsel, John F. Kennedy Space Center
Director, Space Operations, Lyndon B. Johnson Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space




                                                 17
Appendix D

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and         Intergovernmental
  Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               18
                 NASA Assistant Inspector General for Audits
                              Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Audits; NASA Headquarters, Code W, Washington, DC 20546-0001.

Report Title: Final Report on Audit of the Consolidated Space Operations Contract:
              Evaluating and Reporting Cost Savings

Report Number:                                   Report Date:

                Circle the appropriate rating for the following statements.

                                                Strongl                              Strongl
                                                   y      Agree   Neutra   Disagre   y         N/A
                                                                    l         e      Disagre
                                                Agree                                   e
1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

        Excellent               Fair
        Very Good               Poor
        Good


If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:          Local:


May we contact you about your comments?

Yes: ______                                                      No: ______
 Name: ____________________________


Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Daniel Samoviski, Program Director, Program/Project Management Audits

Esther Judd, Program Manager

Clara L. Seger, Auditor-in-Charge

Betty Weber, Operations Research Analyst

Nancy Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
